HHS/OIG, Audit - "Review of Aid to Families With Dependent Children Overpayments in Maine for the Period April 1, 2001, Through March 31, 2005," (A-01-06-02504)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Aid to Families With
Dependent Children Overpayments in Maine for the Period April 1, 2001, Through
March 31, 2005," (A-01-06-02504)
December 7, 2006
Complete Text of Report is available in PDF format (496 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Maine reimbursed the Administration for Children and Families (ACF) in a timely manner for the Federal share of overpayments collected from former Aid to Families With Dependent Children (AFDC) recipients, in accordance with Federal requirements. Maine did not comply with Federal requirements for reimbursing the Federal share of collected AFDC overpayments. Maine collected $786,038 ($497,719 Federal share) from April 2001 through March 2005. However, Maine did not return the Federal share of the recovered overpayments to ACF. We recommended that Maine reimburse ACF $497,719 for the Federal share of collected AFDC overpayments, follow procedures for identifying and reimbursing the Federal share of overpayments collected from former AFDC recipients, and implement procedures to ensure that its new computer system accurately segregates AFDC overpayment collections from TANF overpayment collections. Maine agreed with our findings and recommendations. Maine also agreed to reimburse an additional $171,803, the Federal share of AFDC overpayments collected since our audit ended.